No. 20-1298
IN THE

$,Upreme Qtourt of tbe Wniteb $,lates
DEMETREUS KEAHEY,

Petitioner,
V.

DAVE MARQUIS,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Reply Brief in Support of Certiorari in Keahey v.

Marquis, No. 20-1298, was served via electronic mail on all parties required:
Michael Jason Hendershot

OHIO ATTORNEY GENERAL'S OFFICE

30 E. Broad Street, 17th Floor
Columbus, OH 43215
(614) 466-8980
michael.hendershot@ohioattorneygeneral.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: June 29, 2021

Andrew J.M. Bentz

